                OFFICE OF 
INSPECTOR GENERAL
Semiannual  Report  to  Congress
  a pr i l   1 ,   2 0 0 9 – s ep temb er   3 0 ,   2 0 0 9




                                 national   archives   and
                                 records  administration
TABLE OF CONTENTS

Foreword......................................................................................................................................... i


Executive Summary .......................................................................................................................2 


Introduction ...................................................................................................................................8 


Activities .......................................................................................................................................10 


Audits ...........................................................................................................................................12 


Investigations................................................................................................................................17 


OIG-Identified Program and Operational Significant Deficiencies........................................23 


Top Ten Management Challenges .............................................................................................27 


Reporting Requirements ............................................................................................................31 





 Visit http://www.archives.gov/oig/ to learn more about the National Archives Office of Inspector General.

SEMIANNUAL REPORT TO CONGRESS                                                                                                           Page 1
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

This is the 42nd Semiannual Report to the Congress summarizing the activities and
accomplishments of the National Archives and Records Administration (NARA) Office of
Inspector General (OIG). A summary of agency material weaknesses we believe exist in NARA
programs and operations is also included, as well as a summary of NARA’s top ten management
challenges. The highlights of our major functions are summarized below.

                                            Audits
In this reporting period, the Audit Division continued to examine the development of NARA’s
Electronic Records Archives system and security of NARA’s Information Technology (IT)
systems, and to assess the economy and efficiency of NARA’s programs. Our work this period
had a positive impact on agency operations and related controls in these critical areas.
Recommendations directed to NARA officials will, upon adoption, translate into reduced risk
for the agency and increased levels of security and control over NARA’s financial assets,
programs, and operations.

We issued the following audit reports during the reporting period:

	 OIG Monitoring of the Electronic Records Archives Program Status. This audit,
   performed to advise the Acting Archivist of the current status of the “Base” Electronic
   Records Archives (ERA) program, focused upon whether (a) the ERA Program is meeting
   cost and schedule requirements, and (b) management is taking timely action to correct any
   actual or potential problems. As of February 18, 2009, internal ERA program
   documentation reflected favorable contract cost and schedule performance, even though
   critical ERA requirements had been shifted to later increments. Thus, not all required
   system capabilities were available at the time the ERA was publicized as having achieved
   Initial Operating Capability (IOC). NARA officials had performed an “Option 1 Overrun
   Gap Analysis,” comparing the system as defined in the contractor’s Critical Design Review
   documents with the system actually provided at IOC. This analysis listed 19 items not
   provided, but significant to the successful functioning of the ERA System. The contractor
   was directed to provide a response, with appropriate cost and price breakdown and
   performance/delivery dates, yet, according to a senior NARA program official, the
   contractor failed to comply with this request. Instead, NARA and contractor program
   officials verbally agreed to address these requirements during negotiations for the next stage
   of the contract, Increment 3. In our opinion, the shifting of requirements to future
   increments makes it increasingly apparent the current contract will have to be extended or a
   new follow-on contract awarded in order to complete the program. (Advisory Report #09-
   11, dated April 16, 2009. See page 13. )

	 NARA’s Processing of Military Personnel Records Requests. NARA’s National
   Personnel Records Center (NPRC) maintains the personnel and medical records of nearly all
   former members of the U.S. military service departments who served during the twentieth
   century, and responds to requests for these records. We assessed the management controls
   over the processing and distribution of veterans’ record requests, focusing on whether the
   process was sufficient to properly safeguard veterans’ privacy and information. We found
   NPRC has taken action to heighten the awareness of staff to erroneous disclosures of

SEMIANNUAL REPORT TO CONGRESS                                                            Page 2
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

    veterans’ information, but controls over the processing of record requests need to be
    strengthened in order to properly safeguard veterans’ personally identifiable information
    (PII). NPRC relies on an automated case management system to track and process
    electronic and mail-based inquiries. This system significantly reduces the amount of time it
    takes to respond to a veteran’s request. However, vulnerabilities in the system leaves
    veterans’ PII susceptible to unauthorized disclosure, and jeopardizes the integrity of
    information stored in the system. Additional safeguards are also needed in order to protect
    veterans’ PII in paper form, and to ensure persons requesting access to records have the
    proper authorization to obtain them. We made 14 recommendations to improve
    management controls. Management concurred with 10 recommendations and initiated
    management action. Management concurred with the intent of the four remaining
    recommendations and plans to review possible solutions to address three of them, but did
    not plan to take corrective action to address one recommendation. (Audit Report #09-16,
    dated September 30, 2009. See page 13.)

	 NARA’s Work-at-Home System (WAHS). The WAHS was a high-priority project
   initiated to enhance NARA’s IT remote access capabilities while satisfying the Office of
   Management and Budget (OMB) mandate for two-factor authentication. During this audit,
   we assessed NARA’s efforts in developing this system to determine whether the WAHS was
   developed in accordance with NARA requirements and would meet OMB technical
   requirements. The requirements of NARA’s IT Investment Management Process were not
   followed resulting in significant program delays, cost overruns, and failure to meet OMB
   requirements. This overarching condition has left NARA information vulnerable, restricted
   telecommuting, and impacted NARA’s budget through cost overruns and lease of equipment
   (including leased computer “tokens” at a cost of over $200,000) which could not be
   deployed. Further, by not fully defining system requirements, critical technical challenges
   still needed to be addressed before the system could be fully operational and meet the intent
   of OMB requirements. Consequently, a system originally estimated to cost $500,000 has
   escalated to over $1.23 million and is still far from full implementation. We made seven
   recommendations to ensure the system meets OMB requirements and improves the security
   of remote access to PII and NARA proprietary information. Management concurred with
   each recommendation and agreed to implement corrective actions (Audit Report #09-15,
   dated September 29, 2009. See page 14.)

	 NARA’s Vehicle Fleet Management. This audit assessed whether fleet vehicles were
   adequately utilized and fleet resources were properly controlled. Our audit revealed
   opportunities exist to strengthen the effectiveness and control over management of NARA
   vehicles and put approximately $40,000 of funds to better use. We found that (a) NARA
   vehicles are, in general, underutilized; (b) NARA has not established policies with criteria
   related to the mission of a vehicle to ensure decisions to retain vehicles are based on a
   validated need; (c) NARA has not completed an assessment of its fleet to determine whether
   they have the right number and type of vehicles; (d) NARA does not have a central agency
   fleet manager with decision-making authority over the agency's fleet management program
   at all levels; (e) Controls to request a vehicle and track vehicle usage were not designed to
   detect or prevent misuse or abuse; (f) Controls to ensure employees possess the appropriate
   license are not designed to detect or prevent someone with a poor driving record or

SEMIANNUAL REPORT TO CONGRESS                                                            Page 3
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

    suspended license from using a Government vehicle; and (g) NARA’s policies and
    procedures do not cover key components of an effective fleet management program. We
    made 12 recommendations to assist the agency in enhancing controls over vehicle fleet
    management. Management concurred with the recommendations; however, management
    will perform additional analysis on two of them. (Audit Report #09-13, dated August 26,
    2009. See page 15.)

	 NARA’s FY 2008 Management Control Program. The Federal Managers’ Financial
   Integrity Act (FMFIA) requires ongoing evaluations of and reports on the adequacy of
   internal accounting and administrative control of each executive agency. Annually, the OIG
   performs a review to ensure agency managers continuously monitor and improve the
   effectiveness of internal controls associated with their programs. This continuous
   monitoring in conjunction with other periodic evaluations provides the basis for the agency
   head’s annual assessment of, and report on, internal controls as required by FMFIA. The
   agency’s FY 2008 assurance statement was inaccurate and underreported material risk
   associated with NARA’s Preservation and Processing programs. This is the same
   conclusion we reached and conveyed to the agency of their FY 2007 assurance statement. A
   review of open recommendations from last year’s audit report found management has not
   taken action to close the recommendations. Accordingly, NARA continues to exhibit
   weaknesses in internal controls first identified in FY 2007 which degrade the effectiveness
   of internal controls and the accuracy of office assurance statements. We made four
   recommendations to strengthen weaknesses cited in this review. Management concurred
   with each recommendation. (Audit Report #09-14, dated August 28, 2009. See page 16.)

                                      Management Letters
	 Failure to Provide Complete Information on Records Requests at the National
   Personnel Records Center (NPRC). For all armed services except the United States
   Marine Corps (USMC), the NPRC was routinely withholding records requested by
   veterans and their next of kin without notifying the requester. This was done for the
   personnel records of military members who were discharged, retired, or died in service
   62 years or less from the date of the request. When a veteran or their next of kin
   requested “all documents” in an Official Military Personnel File (OMPF), or complete
   medical records, the NPRC was only providing selected records without informing the
   requester the file contains more information than was disclosed. Partial responses are
   given because NPRC believes this meets the needs of the majority of requesters without
   incurring the cost of processing complete copies of the records. In our opinion,
   providing partial responses without notifying the requestor more documents exist
   misleads veterans and other requesters and should not continue. When we brought this
   condition to management’s attention they initiated some immediate actions to inform
   veterans when records are being withheld. (Management Letter #09-17, dated September
   29, 2009.)

	 Potential Data Compromise at the National Personnel Records Center (NPRC). The
   OIG advised the Acting Archivist of a significant risk to the agency resulting from a
   defective practice used to process requests for military records. As a result, the agency was

SEMIANNUAL REPORT TO CONGRESS                                                            Page 4
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

    consistently exposing military veterans’ personally identifiable information to potential
    compromise. This condition had persisted for years. When we brought this condition to
    management’s attention they agreed with our concerns and immediately changed the process
    to properly protect the information. (Management Letter #09-12, dated April 29, 2009.)

                                       Investigations
During this reporting period, the Office of Investigations (OI) opened nine investigations, closed
eight investigations, and recovered three historical records. The OI also received 46 complaints
and closed 25 complaints. Additionally, the OI worked with the U.S. Secret Service, the FBI,
the Department of State Bureau of Diplomatic Security Service, the Naval Criminal
Investigative Service, the U.S. Postal Inspection Service, the CIA, the Atlanta Police
Department, the Montgomery County (Maryland) Police Department, and the IRS, as well as the
Offices of Inspectors General at the General Services Administration, the Department of State,
and the Veterans Administration on various issues. At the close of the period, there remained 46
open complaints and 39 open investigations.

The OI completed investigations in a variety of areas including the following:

       Stolen/Missing Presidential Records
       Sensitive and Personally Identifiable Information on Scrap Laptops
       Misuse of the NARA Seal
       Transit Authority Fraud
       Stolen NARA Laptop
       Missing Presidential Correspondence
       Security Clearance Suitability
       Stolen/Missing NARA Property

The Office of Investigations is presently staffed with five 1811 series Special Agents, an
investigative archivist, a computer forensic analyst, and an Assistant Inspector General for
Investigations. One Special Agent completed the Federal Law Enforcement Training Center’s
Criminal Investigator Training Program during the period. This team provides investigative
coverage to an approximately 3,000-person, 44-facility, nationwide agency that includes the
Presidential library system. This broad-based area of operations presents a demanding
investigative challenge to provide real-time coverage when multiple incidents occur requiring a
rapid response. The addition of two investigators budgeted for FY 2010, to include a senior-
level Special Agent, will enhance the office’s ability to conduct complex and high-profile
investigations, as well as to begin performing proactive investigative activity in a timely and
efficient manner in order to better support our statutory mission. This continued growth will
also allow the OI to expand its physical presence and begin staffing our office at the National
Archives facility in Washington, DC. To manage this much-needed growth, the OI completed
an internal reorganization, formalizing the status of our computer crimes unit and creating
leadership positions to ensure opportunities for professional development within the office.




SEMIANNUAL REPORT TO CONGRESS                                                             Page 5
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

                             Inspector General’s Concerns

Readers of our semiannual reports are by now familiar with my concerns about the Electronic
Records Archives (ERA) program and the future of Federal recordkeeping. These concerns
continue unabated and we will continue to provide as much coverage as resources allow to this
nationally important program. In a report issued by the Government Accountability Office
(GAO) titled National Archives and Records Administration FY 2009 Expenditure Plan (09-
073), GAO auditors defined a series of findings mirroring those reported by our office.

Another concern which has grown exponentially in my mind is security over personally
identifiable information (PII). Both our accessioned holdings and our daily working systems
contain an almost immeasurable amount of PII. Accordingly, it is paramount for internal
controls to be designed, implemented, tested, and routinely updated to address emerging threats
to information housed by this agency. The cost of not having a robust and proactive approach in
this area far outstrips the costs of proactively and thoroughly implementing proper controls on
the front-end.

Forensic investigative work performed by my staff has identified information technology risk
factors previously unknown and in areas thought not to be exploitable. As a result, misplaced
confidence in technological constraints of reading data on exportable devices gave way to the
knowledge it could be accomplished using readily available tools.

Thus there is new realization within NARA that laissez faire controls over such devices
represent an untenable risk to our agency and the mission we serve. Looking forward to a new
Archivist it is my hope such positive change will result in the elevation of the security posture of
this agency. Our responsibility and duty to the American people is far too important to allow
their personal information to be subject to loss or compromise.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 6
April 1, 2009 to September 30, 2009
EXECUTIVE SUMMARY

                                  Management Assistance

	 Presented twice at NARA’s new Supervisory Fundamentals Seminar. Taught new
   supervisors about the role of the OIG and the supervisor’s responsibilities.

	 Referred two cases from the Archival Recovery Team to the Office of General Counsel
   pursuant to NARA Directive 1462.

	 Attends NARA’s formal Breach Team Meetings to provide insight to privacy information
   breaches from an Inspector General’s perspective.

	 Provided comments on NARA Directive 803 to ensure proper notification to users of public
   computers at NARA they have no expectation of privacy.

	 Provided substantial comment and input into NARA 1608, NARA’s new directive
   concerning personally identifiable information.

	 Reviewed NARA Directive 404, resulting in changing a phrase which mistakenly allowed
   for acceptance of partisan and religious gifts to NARA.

	 Prepared a Freedom of Information Act appeal for the Archivist’s decision on files relating
   to an inappropriate conduct investigation.

	 Helped create a reward flyer for a missing hard drive containing Clinton White House
   information.

	 Provided comment and inputs into several NARA directives, including those concerning the
   new Anti-Harassment Policy, pre-accessioning permanent electronic records, NARA’s
   security, IT privacy impact assessments/initial privacy reviews, and others.


                                       OIG Awards
Christine Dzara (left) was recognized for
outstanding performance in auditing NARA’s IT
program and identifying critical weaknesses in
NARA’s IT processes, infrastructure, and systems.


Carol Johnson (right) was recognized for
outstanding audit efforts in identifying millions of
dollars in lost property and items not properly
documented and accounted for due to weak internal
management controls.



SEMIANNUAL REPORT TO CONGRESS                                                           Page 7
April 1, 2009 to September 30, 2009
INTRODUCTION

        About the National Archives and Records Administration
Mission
The National Archives and Records Administration serves American democracy by safeguarding
and preserving the records of our Government, ensuring the people can discover, use, and learn
from this documentary heritage. Further, the agency ensures continuing access to the essential
documentation of the rights of American citizens and the actions of their government; and
supports democracy, promotes civic education, and facilitates historical understanding of our
national experience.

Background
NARA, by preserving the nation’s documentary history, serves as a public trust on which our
democracy depends. It enables citizens to inspect for themselves the record of what the
Government has done. It enables officials and agencies to review their actions and helps citizens
hold them accountable. It ensures continuing access to essential evidence documenting the rights
of American citizens, the actions of Federal officials, and the national experience.

Federal records reflect and document America’s development over more than 200 years. They
are great in number, diverse in character, and rich in information. NARA’s traditional holdings
amount to 31 million cubic feet of records. These holdings also include, among other things,
letters, reports, architectural/engineering drawings, maps and charts; moving images and sound
recordings; and photographic images. Additionally, NARA maintains hundreds of thousands of
artifact items and over 6.7 billion logical data records. The number of records born and stored
solely in the electronic world will only continue to grow, thus NARA is developing the
Electronic Record Archives to address this burgeoning issue.

NARA involves millions of people in its public programs, which include exhibitions, tours,
educational programs, film series, and genealogical workshops. In FY 2009, NARA had 37.5
million online visits in addition to hosting 3.7 million traditional museum visitors, all while
responding to 1.4 million written requests from the public. NARA also publishes the Federal
Register and other legal and reference documents, forming a vital link between the Federal
Government and those affected by its regulations and actions. Through the National Historical
Publications and Records Commission, NARA helps preserve and publish non-Federal historical
documents that also constitute an important part of our national heritage. Additionally, NARA
administers 13 Presidential libraries preserving the papers and other historical materials of all
past Presidents since Herbert Hoover.

Resources
In fiscal year (FY) 2009, NARA was appropriated an annual budget of approximately $459.2
million and 2,923 (estimated) Full-time Equivalents (FTEs), including appropriations of $330
million for operations, $67 million for the Electronic Records Archives (ERA) program, $50.7
million for repairs and restorations of facilities, and $11.2 million for grants. NARA operates 44
facilities nationwide.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 8
April 1, 2009 to September 30, 2009
INTRODUCTION

                  About the Office of Inspector General (OIG)

The OIG Mission
The OIG’s mission is to ensure NARA protects and preserves the items belonging in our
holdings, while safely providing the American people with the opportunity to discover, use and
learn from this documentary heritage. We accomplish this by providing high-quality, objective
audits and investigations; and serving as an independent, internal advocate for economy,
efficiency, and effectiveness.

Background
The Inspector General Act of 1978, as amended, along with the Inspector General Reform Act of
2008, establishes the OIG’s independent role and general responsibilities. The Inspector General
reports to both the Archivist of the United States and the Congress. The OIG evaluates NARA’s
performance, makes recommendations for improvements, and follows up to ensure economical,
efficient, and effective operations and compliance with laws, policies, and regulations. In
particular, the OIG:

	 assesses the effectiveness, efficiency, and economy of NARA programs and operations

	 recommends improvements in policies and procedures to enhance operations and correct
   deficiencies

	 recommends cost savings through greater efficiency and economy of operations, alternative
   use of resources, and collection actions; and

	 investigates and recommends legal and management actions to correct fraud, waste, abuse, or
   mismanagement.

Further, the OIG investigates criminal and administrative matters concerning the agency, helping
ensure the safety and viability of NARA’s holdings, customers, staff, and resources.

Resources
The FY 2009 OIG budget was approximately $2,932,000 for operations and authorizes 20 full-
time employees (FTEs). Two more criminal investigator positions are anticipated in FY 2010.
At the beginning of the current period the OIG had 18 FTEs in the office. During the period the
OIG advertised and hired one senior auditor and one special agent position. At current full
staffing, the OIG has: one Inspector General, one support staff, nine FTEs devoted to audits,
eight FTEs devoted to investigations, and a counsel to the Inspector General.




SEMIANNUAL REPORT TO CONGRESS                                                           Page 9
April 1, 2009 to September 30, 2009
ACTIVITIES

              Involvement in the Inspector General Community

CIGIE Investigations Committee
The IG served as a member of the Counsel of Inspector Generals on Integrity and Efficiency’s
Investigations Committee. The mission of the Investigations Committee is to advise the IG
community on issues involving investigative functions, establishing investigative guidelines, and
promoting best practices. The Investigations Committee relies on its Investigations Advisory
Subcommittee to assist it in these efforts. The goal, therefore, is to continuously enhance
professionalism within our investigator community.

Council of Counsels to Inspectors General (CCIG)
The OIG counsel is an active participant in meetings of the CCIG, and communicated regularly
with fellow members. In these meetings multiple topics were raised, discussed, and addressed,
including the operation and staffing of the new Counsel of Inspectors General on Integrity and
Efficiency, launching a new interactive CCIG website, changes to the various Federal laws and
policies, the training of IG criminal investigators, and various high-profile investigations in the
IG community.

Federal Audit Executive Council (FAEC)
The Assistant Inspector General for Audits (AIGA) continued to serve as a representative to the
FAEC. During the period, the AIGA attended FAEC’s meeting to discuss topics such as
financial statement audit issues, audit training, opinion reports on internal controls, and
information security.




SEMIANNUAL REPORT TO CONGRESS                                                               Page 10
April 1, 2009 to September 30, 2009
ACTIVITIES

                           Response to Congressional Items


Testimony on Missing Hard Drive Containing Information from the Clinton
White House
On July 30, 2009, the Inspector General testified before the Information Policy, Census, and
National Archives Subcommittee of the House Oversight and Government Reform Committee.
He testified on the circumstances surrounding an external computer hard drive missing from a
NARA facility which contained approximately two terabytes of material from the Clinton White
House. While this is an ongoing investigation, the IG was able to testify about several of his
concerns, including potential subjects’ access to other national security and Presidential data, and
the generally non-secure treatment of a broad amount of data from the Clinton White House both
at NARA facilities and at a contractor facility where the data was being copied. Further, the IG
was asked about the security controls specific to the NARA facility which lost this drive. He
testified they “were inadequate, and what controls were there were readily bypassed and
obviously compromised on an ongoing and dynamic basis.”

Open Audit Recommendations
The Ranking Member of the Committee on Oversight and Government Reform asked for an
update on statistical information on open audit recommendations with potential monetary
benefits issued from 2001 through March 31, 2009. The OIG responded that the overwhelming
focus of our audit efforts has been to improve NARA’s operational effectiveness and efficiency
and enhance physical, environmental, and information technology security. Out of 488
recommendations made in that timeframe, there are 170 still open, and none of the open
recommendations are older than FY 2005. Of those remaining open recommendations, only one
related to potential monetary benefits.

Briefings to Congressional Committee Staffs
During the reporting period we briefed several House and Senate Committee staffs on topics
including the Electronic Records Archives, NARA’s loss of a two-terabyte hard drive containing
information from the Clinton White House, and several issues pertaining to veterans’ data.

Inventory of Commercial Activities
We submitted to OMB our FY 2009 inventory of commercial activities performed by OIG
employees. The Federal Activities Inventory Reform Act of 1998, Pub.L. 105-270 (the FAIR
Act), requires Federal agencies to annually prepare and submit to OMB inventories of
commercial activities performed by Federal employees. OMB reviews each agency’s inventory
and consults with the agency regarding its content. OMB is then required to list the available
inventories in the Federal Register, and the agency head must transmit a copy of the inventory to
the Congress and make it available to the public. NARA forwarded its FY 2009 inventory to
OMB and published it to the NARA website during this reporting period.
.

SEMIANNUAL REPORT TO CONGRESS                                                               Page 11
April 1, 2009 to September 30, 2009
AUDITS

                                                  Overview

This period, we issued:

    	 five final audit reports, and
    	 two management letters. 1

We continued work on the following assignments:

    	 an audit of NARA’s Oversight of Electronic Recordkeeping/Electronic Records
       Management to evaluate the effectiveness of NARA’s management controls over the
       management of electronic records in the Federal Government

    	 progress reviews of the Electronic Records Archives development to report progress to
       ERA stakeholders, including achievements, challenges, risks, and concerns

    	 an audit of NARA’s Network Infrastructure to determine if NARA has effectively
       implemented appropriate physical security and access controls to protect network
       resources

    	 an audit of NARA’s Oversight of Selected Grantees’ Use of Grant Funds to determine
       whether management controls are adequate to ensure (1) grants are properly
       administered, (2) grant goals and objectives are adequately met, and (3) grant funds are
       adequately accounted for and expended

    	 an audit of NARA’s Movement of Freight Shipments to assess whether controls are
       effective and efficient to ensure that NARA obtains the best value and most economical
       prices for the movement of freight

    	 an audit of the Process for Providing and Accounting for Information Provided to
       Researchers to determine whether controls are in place for ensuring requested records are
       safeguarded and properly accounted for when requested, used by researchers, and
       returned

    	 an audit of the Accuracy of Performance Measurement and Reporting Data to verify the
       validity of data entered into NARA’s Performance Measurement and Reporting System.




1 Management letters are used to address issues, not resulting from an audit, which need to be quickly brought to the
Archivist’s or management’s attention.

SEMIANNUAL REPORT TO CONGRESS                                                                              Page 12
April 1, 2009 to September 30, 2009
AUDITS

                                      Audit Summaries

Monitoring of the Electronic Records Archives Program Status
This audit, performed to advise the Acting Archivist of the current status of the “Base”
Electronic Records Archives (ERA) Program, focused on whether (a) the ERA Program is
meeting cost and schedule requirements, and (b) management is taking timely action to correct
any actual or potential problems. This is the second report resulting from our continuing effort
to evaluate and report on government and contractor efforts associated with developing the ERA.

In our first status report, we concluded that, because of funding and other issues, it was likely the
ERA System would not achieve Full Operating Capability as originally envisioned, that is, the
ERA will not have all the desired functionality when the development contract with the
Lockheed Martin Corporation ends in March 2012. We continue to be concerned additional
funding will be needed to complete the program, and that no one knows when, or if, the ERA
may be fully operational.

As of February 18, 2009, internal ERA program documentation reflected favorable contract cost
and schedule performance, even though critical ERA requirements had been shifted to later
increments. Specifically, on December 15, 2008, the ERA Contracting Officer issued a letter to
the contractor informing them not all required system capabilities were available at the time the
ERA was publicized as having achieved an Initial Operating Capability (IOC). According to the
letter, NARA officials had performed a “gap analysis” called the “Option 1 Overrun Gap
Analysis,” comparing the system as defined in the contractor’s Critical Design Review
documents with the system actually provided to the Government by the contractor at IOC. The
gap analysis contained a list of 19 items significant to the successful functioning of the ERA
System. The contractor was requested to provide a response, with appropriate cost breakdown
and performance/delivery dates, on or before February 13, 2009. However, according to a senior
ERA Program official, the contractor failed to comply with this request. Instead, NARA and
contractor program officials verbally agreed to address these requirements during negotiations
for the next phase of the contract, Increment 3. In our opinion, the shifting of requirements to
future increments makes it increasingly apparent the current contract will have to be extended, or
a new follow-on contract awarded, to complete the program. (Advisory Report # 09-11, dated
April 16, 2009.)

NARA’s Processing of Military Personnel Records Requests

The National Personnel Records Center (NPRC) maintains the personnel and medical records of
nearly all former members of the U.S. military service departments who served during the 20th
century. The purpose of this audit was to assess the management controls over the processing
and distribution of veterans’ record requests. Specifically, our review focused on whether the
process was sufficient to properly safeguard veterans’ information.




SEMIANNUAL REPORT TO CONGRESS                                                                Page 13
April 1, 2009 to September 30, 2009
AUDITS

Safeguarding personally identifiable information (PII) and privacy information in the possession
of the Government and preventing its breach are essential to ensure the Government retains the
trust of the American public. The Privacy Act of 1974 required agencies to establish appropriate
administrative, technical and physical safeguards to ensure the security and confidentiality of
records and to protect against any anticipated threats or hazards to their security or integrity
which could result in substantial harm, embarrassment, inconvenience, or unfairness to any
individual on whom information is maintained.

In support of the audit objective, we reviewed the Privacy Act of 1974 and OMB policy
memorandums on safeguarding PII. We also reviewed NARA policy and procedures for
releasing veterans’ records. We evaluated controls over the receipt of military personnel record
requests, the processing of those requests, and the distribution of the requested information to
ensure privacy information was not released to unauthorized individuals. We evaluated controls
in NARA’s automated processing system, the Case Management and Reporting System
(CMRS), to determine whether the controls were reasonable to protect the confidentiality of data
against such risks as unauthorized access, modification, or disclosure of data. We also reviewed
additional physical security controls in place to protect veterans’ privacy information.

We found controls over the processing of veterans’ record requests need to be strengthened to
properly safeguard PII. NPRC relies on CMRS to track and process both electronic and mail-
based requests from receipt through fulfillment and closure. The system has greatly reduced the
amount of time it takes NPRC to respond to a veteran’s record request, however, vulnerabilities
in the system leaves veterans’ personal information susceptible to unauthorized disclosure and
jeopardizes the integrity of the information stored in the system. We also found additional
safeguards are needed in order to protect veterans’ PII in paper form and to ensure persons
requesting access to records have the proper authorization to obtain those records.

We made 14 recommendations which upon implementation will assist NARA in providing
appropriate administrative, technical, and physical safeguards over PII as required by the Privacy
Act. Management concurred with 10 recommendations and initiated management action.
Management concurred with the intent of the four remaining recommendations and plans to
review possible solutions to address three of them, but did not plan to take corrective action to
address one recommendation. (Audit Report# 09-16, dated September 30, 2009.)

NARA’s Work at Home System
The Work at Home System (WAHS) was initiated to enhance NARA’s remote information
technology (IT) access capabilities while satisfying the Office of Management and Budget
(OMB) mandate for two-factor authentication. During this audit, we assessed NARA’s efforts in
developing this system to determine whether the WAHS was developed in accordance with
NARA requirements and would meet OMB technical requirements.

In June 2006, OMB issued memorandum M-06-16, Protection of Sensitive Agency Information,
requiring all departments and agencies to only allow remote IT access to their systems with two-
factor authentication where one of the factors was proved by a device separate from the
computer gaining access. The intention of this mandate was to ensure additional controls were in


SEMIANNUAL REPORT TO CONGRESS                                                             Page 14
April 1, 2009 to September 30, 2009
AUDITS

place when information, particularly Personally Identifiable Information (PII), is accessed from
outside of an agency’s physical location. This safeguard, along with others, was to be reviewed
and in place within 45 days of the memorandum. NARA did not even begin working on this
mandate until 2007, well after it was to already be in place.

Because of the significant delay in the implementation of the WAHS, NARA was not in
compliance with the two-factor authentication requirements mandated by OMB. The WAHS
was a high-priority project to be completed within a very short timeframe. However, the
requirements of NARA’s Information Technology (IT) Investment Management Process were
not followed resulting in significant program delays, cost overruns, and failure to meet OMB
defined requirements. This overarching condition has left NARA information vulnerable,
restricted telecommuting, and impacted NARA’s budget through cost overruns and lease of
equipment (to include computer “tokens” at a cost of over $200,000), which could not be
deployed. Further, by not fully defining system requirements, critical technical challenges still
needed to be addressed before the system could be fully operational and meet the intent of OMB
requirements. Consequently, a system originally estimated to cost $500,000 has now escalated
to over $1.23 million and is still far from full implementation.

Our audit identified several improvements to be made in the IT Investment Management Process
and the development and deployment of the WAHS. Specifically, we made seven
recommendations to ensure the system meets OMB requirements and improves the security of
remote access to PII and NARA proprietary information. Management agreed with each of the
recommendations. (Audit Report #09-15, dated September 29, 2009)

NARA’s Vehicle Fleet Management
The objective of this audit was to determine if fleet vehicles are adequately utilized and fleet
resources are properly controlled. The purpose of NARA’s fleet includes transporting NARA
employees conducting official business, transporting official visitors (either government or non-
government) from public transportation areas (such as airports, train stations, etc.) to NARA
facilities or between NARA facilities, and transporting records.

Our audit revealed opportunities to strengthen the effectiveness and control over management of
NARA vehicles and put approximately $40,000 of funds to better use. We found that (a) NARA
vehicles are, in general, underutilized; (b) NARA has not established policies with clearly
defined use criteria related to the mission of a vehicle to ensure decisions to retain vehicles are
based on a validated need; (c) NARA has not completed an assessment of its fleet to determine
whether they have the right number and type of vehicles; (d) NARA does not have a central
agency fleet manager with decision making authority over the agency's fleet management
program at all levels; (e) Controls to request a vehicle and track vehicle usage were not
designed to detect or prevent misuse or abuse; (f) Controls to ensure employees possess the
appropriate license are not designed to detect or prevent someone with a poor driving record or
suspended license from using a government vehicle; and (g) NARA’s policies and procedures do
not cover key components of an effective fleet management program.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 15
April 1, 2009 to September 30, 2009
AUDITS

Fleet management attention is needed to ensure NARA’s fleet has the right size and composition.
As NARA did not have reasonably complete and accurate information on the total miles driven
and the frequency of vehicle use, fleet managers could not accurately assess vehicle utilization.
While NARA had already made some strides in gathering this information, more is needed.
Additionally, tracking and monitoring utilization helps identify possible misuse or abuse.

During the conduct of the audit additional internal controls were implemented by NARA. These
included reviewing General Services Administration (GSA) invoices (which has resulted in cost
savings); expanding global positioning system (GPS) usage and monitoring; and tracking
mileage, fuel, and accident data. At NARA’s main facility in College Park, MD, the fleet
manager is now using a vehicle management daily checklist and sign out logs for all vehicles.
However, this approach has not been adopted agency-wide. We made 12 recommendations, with
which management concurred, to enhance controls over vehicle fleet management. (Audit Report
#09-13, dated August 26, 2009.)

NARA’s FY 2008 Management Control Program
The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (Public Law 97-255) requires
ongoing evaluations of the adequacy of internal accounting and administrative control of each
executive agency. The Act requires the head of each agency to annually prepare a statement on
the adequacy of the agency’s systems of internal accounting and administrative control.
Annually, the OIG performs a review to ensure agency managers continuously monitor and
improve the effectiveness of internal controls associated with their programs. This continuous
monitoring, in conjunction with other periodic evaluations, provides the basis for the agency
head’s annual assessment of, and report on, internal controls as required by FMFIA.

Our initial assessment of the agency’s FY 2008 assurance statement, as conveyed in our October
31, 2008, memorandum to the Acting Archivist, was that the statement was inaccurate and
underreported material risk associated with NARA’s Preservation and Processing programs.
Further audit work confirmed our initial assessment. This is also the same conclusion we
reached and conveyed to the agency head in our previous assessment of NARA’s FY 2007
assurance statement. Our full review revealed management had not yet completed action to
close recommendations contained in our FY 2007 audit report. The three recommendations
contained in that report were directed toward the Policy and Planning Staff (NPOL) and aimed at
strengthening the process for identifying, testing, and reporting on internal controls associated
with critical functions. Our audit also found two program offices did not adequately monitor
internal controls. Specifically, one program office did not review the results of classified
security self-assessments, while another program office excluded relevant program review
findings from their assurance statement.

As a result of these conditions, NARA continues to exhibit weaknesses in its internal controls
degrading the effectiveness of the internal control program and the accuracy of office assurance
statements. We made three recommendations that, upon adoption, will help NARA strengthen
its program of internal controls and result in more complete and accurate annual reporting in
accordance with FMFIA. Management concurred with our recommendations. (Audit Report
#09-14, dated August 28, 2009.)


SEMIANNUAL REPORT TO CONGRESS                                                            Page 16
April 1, 2009 to September 30, 2009
INVESTIGATIONS

                                  Investigations Overview

During this reporting period, the Office of Investigations (OI) opened nine investigations, closed
eight investigations, and recovered three historical records. The OI also received 46 complaints
and closed 25 complaints. Additionally, the OI worked with the U.S. Secret Service, the FBI, the
Department of State Bureau of Diplomatic Security Service, the Naval Criminal Investigative
Service, the U.S. Postal Inspection Service, the CIA, the Atlanta Police Department, the
Montgomery County (Maryland) Police Department, and the IRS, as well as the Offices of
Inspectors General at the General Services Administration, the Department of State, and the
Veterans Administration. At the close of the period, there remained 46 open complaints and 39
open investigations.


                Updates on Previously Reported Investigations
Alleged Wire Fraud, Theft of Public Money, Money Laundering
A former NARA employee and a former NARA contractor, who are alleged to have stolen
nearly $1 million from NARA, were indicted by a Federal grand jury in the District of Maryland.
Arrest warrants were subsequently issued and executed. Both subjects have made their first
appearances in court, and NARA OIG seized two vehicles belonging to the former contractor.

False Claims
A subject contractor submitted claims for hours worked by unqualified personnel. This violated
the terms of the contract with NARA. An Assistant United States Attorney declined the case for
criminal prosecution. A United States civil attorney has accepted the case for civil action. This
investigation is ongoing and remains pending with the U.S. civil attorney.

Personally Identifiable Information on Scrap Laptops
Laptop computers excessed from the National Archives were released to a non-government
contractor without having been appropriately erased. The computers were seized by the OI and
subjected to forensic analysis. This analysis revealed sensitive information from the Information
Security Oversight Office as well as personally identifiable information (PII). NARA employed
inadequate measures to ensure PII and other sensitive information was removed from laptop
computers prior to being excessed. NARA has since instituted certification requirements
mandating removal of all data from laptops prior to disposal.

Conflict of Interest
A NARA employee started a private-sector business providing the identical services for which
he was employed by the Government. These services were provided commercially on
Government time using Government equipment, and service priority was given to commercial
clients over Government clients. The case was accepted for prosecution by an Assistant United
States Attorney. The employee pled guilty to a Conflict of Interest and was sentenced to three
years probation, fined $1,500, and made to pay restitution of $3,988.



SEMIANNUAL REPORT TO CONGRESS                                                             Page 17
April 1, 2009 to September 30, 2009
INVESTIGATIONS

Mishandling of Classified Documents
In 2007, more than 6,000 boxes of classified material stored by NARA were reported to the OI
as missing. After a lengthy internal inventory, many of these materials have been accounted for,
but 84 boxes of Top Secret and/or Restricted Data materials have not been found. A separate
inventory of commingled confidential, secret, and non-classified material has failed to account
for an additional 5,000 boxes of missing material. An investigation to determine the status of the
missing records remains ongoing.

Procurement Integrity Act Violation
A NARA employee provided a contract bidder with pre-decisional information allowing the
contractor to gain an advantage over other contractors bidding on the contract. When
confronted, the subject, who had by then left NARA, made false statements to investigators
regarding their involvement in the contract award process. The Antitrust Division at the
Department of Justice declined prosecution, and the case was subsequently declined as a civil
action by an Assistant U.S. Attorney.

Making and Using a False Writing
The subject pled guilty to making and using a false writing for knowingly and willfully forging
the name of a military veteran on a Military Record Retrieval Authorization form in order to
obtain private and official United States military records of that serviceman held by NARA at the
National Personnel Records Center (NPRC) in St. Louis, Missouri. The subject was requesting
these documents for a client seeking information about the particular veteran. The subject was
sentenced to three years probation, 90 days house arrest, and a $3,000 fine.

Counterfeit/Grey Market IT Contract Fraud
An IT contractor provided NARA with counterfeit and “grey market,” or resold, equipment in
violation of the contract terms. The case has been accepted for prosecution by an Assistant
United States Attorney for mail and wire fraud, as well as false claims. The investigation
remains ongoing.

Lost/Stolen Presidential Records
Four folders containing negatives of Clinton Presidential photographs were lost after a request
for the photographs was processed at the William J. Clinton Presidential Library. This
investigation was not resolved. While violations of NARA policy related to the security of
NARA holdings were substantiated, the missing folders were not recovered. Administrative
action remains pending.

Falsification of Military Service Records
The subject falsified his military service record, and sent the record through the United States
Postal Service under cover of a forged letter and envelope bearing the seal and markings of
NARA. The subject created the false envelope and cover letter to legitimize the authenticity of
his altered military service record. The subject also provided false statements concerning his
prior military service on an official Federal employment application, and was subsequently
employed by the Department of the Army by way of the falsified employment application. An
Assistant United States Attorney accepted the case for prosecution.

SEMIANNUAL REPORT TO CONGRESS                                                             Page 18
April 1, 2009 to September 30, 2009
INVESTIGATIONS

Intrusion at Presidential Library
An unidentified intruder gained unlawful entry to the Jimmy Carter Library and Museum in
Atlanta, Georgia. Three bicycles were later found to be missing – including one donated to
Former President Carter and a second donated to Former First Lady Rosalynn Carter. Security
guards were unaware of the intrusion. The OIG joined with the U.S. Secret Service and the
Atlanta Police Department in this investigation. A variety of security and oversight deficiencies
were identified, and the case was referred to NARA for appropriate administrative action.

Inappropriate Controls Over Computer Hard Drive
NARA returned a defective computer drive from a system that held veterans’ records to the
manufacturer for maintenance and/or replacement without effectively wiping the drive of any
sensitive or privacy information that may have been stored on it. The drive was determined to
have inappropriately left the control of NARA contrary to existing policy. This investigation
remains ongoing.

                              New Investigation Highlights
Vandalism at Mid-Atlantic Records Center
During the reporting period, several bullet holes were discovered on the exterior of the Mid
Atlantic Region’s Federal Records Center. One bullet struck and ruptured an exterior gas line
causing a gas leak. The OIG worked with the Federal Protective Service and the Philadelphia
Police Department. The case remains unresolved.

Security Clearance Suitability
During the reporting period, the OIG learned of multiple NARA employees who had previously
traveled to a country with which the United States does not have full diplomatic relations. The
case was referred to OIG to ensure the travel was authorized and did not constitute a violation of
U.S. law or raise suitability issues regarding any employees’ security clearance. The
investigation remains open and ongoing.

Mismanagement at a Presidential Library
The OIG received allegations of financial mismanagement at a Presidential library. The OIG is
working with NARA’s Office of Presidential Libraries, which had conducted its own internal
financial review. The investigation remains open and ongoing.

Credit Card Theft
A NARA employee reported his personal credit card had been stolen from within a NARA
facility. Multiple illicit purchases were subsequently made. The OIG is working with local law
enforcement, and this investigation remains open and ongoing.

Stolen/Missing Clinton hard drive
During the reporting period, it was reported to the OIG that a two-terabyte hard drive used to
back up records from the Clinton Administration was missing. Working with NARA, the OIG


SEMIANNUAL REPORT TO CONGRESS                                                             Page 19
April 1, 2009 to September 30, 2009
INVESTIGATIONS

began analyzing another copy of the hard drive, which was determined to contain a voluminous
amount of sensitive and privacy related information. NARA began a breach notification to the
parties affected and OIG continued its forensic analysis of the drive for other types of sensitive
information. The OIG, working with the U.S. Secret Service and the FBI, simultaneously began
an investigation to recover the missing drive. The forensic analysis, the search for the missing
drive, and the breach notification remain ongoing.

Missing Backup Tapes from FDR Library
NARA informed the OIG two computer back-up tapes shipped to NARA’s College Park facility
were missing. These tapes contained information from the FDR administration. When the
package arrived at NARA, it was empty. Working with security personnel at Federal Express,
one tape was recovered. This case remains open and ongoing.

Indecent Exposure
During the period, OIG received a report of a naked male seen at the National Archives Building
in Washington, DC. OIG’s investigation determined the identity of the subject. The case was
referred to the Washington, DC. Attorney General and is pending prosecution.

Clipped Signatures
A long time NARA researcher alerted NARA that signatures of famous World War II flying aces
have been cut from Air Corps operations reports held at the Archives. The Archival Recovery
Team’s investigation remains open and ongoing.


                        Other Office of Investigation Activity
Archival Recovery Team
During this period, the Archival Recovery Team (ART) fielded 11 complaints and opened one
investigation. Eight complaints and two investigations were closed. In addition, two non-
criminal ART cases were referred to NARA for a recovery determination. At the close of the
period, 17 ART complaints and five ART investigations remained open. The ART successfully
recovered three records during the period.

As part of the ART’s outreach program targeting individuals and groups who may have
interactions with historic records, Office of Investigations staff manned displays at the following
shows to educate the public about the NARA OIG and ART:

	 April 2009: ART manned a display at the New York Autograph Show sponsored by the
   Professional Autograph Dealers Association. ART conversed with dealers and collectors
   about the recovery of stolen and alienated documents and items of interest. ART also
   attended the New York Antiquarian Book Fair sponsored by The Antiquarian Booksellers’
   Association of America.

	 April 2009: ART manned a display at the Northern Virginia Relic Hunters Civil War show
   in Fredericksburg, VA.

SEMIANNUAL REPORT TO CONGRESS                                                              Page 20
April 1, 2009 to September 30, 2009
INVESTIGATIONS

	 May 2009: ART manned a display at the Ohio Civil War Collectors Show in Mansfield, OH.
   ART also worked with a staff member from NARA’s Great Lakes Regional Archives-
   Chicago who was distributing educational materials.

	 June 2009: ART manned a display at the 35th Annual Gettysburg Civil War Collectors
   Show.

	 July 2009: ART was joined by the Inspector General to speak at the 2009 National
   Association of Government Archives and Records Administration’s (NAGARA) annual
   meeting in Seattle. The Inspector General spoke about confronting the issue of holdings
   theft and a member of ART discussed how and why ART was created and its function in the
   archival community.

	 August 2009: ART was joined by the Inspector General to speak at the Society of American
   Archivist Security Roundtable during their annual conference in Austin, TX. The ART and
   the IG discussed how the OIG recovers Federal records, identifies materials that have been
   stolen, and educates dealers, collectors, and the public. Also addressed was the new security
   challenge of protecting personal information sought by identity thieves.

	 August 2009: ART and other OIG staff manned a display at the Richmond Civil War Show.

	 September 2009: ART manned a display at Zurko’s Midwest Promotions Civil War Show in
   Wheaton, IL. Sharing our table was an employee of NARA’s Great Lakes Regional
   Archives-Chicago who was distributing educational materials.

Computer Crimes Unit

During the reporting period, the Computer Crimes Unit (CCU) provided digital forensic support
to numerous criminal investigations. The CCU participated in the execution of a consent
search during which forensic images were obtained from four computers and performed
the forensic examination of another computer hard drive provided by consent from the subject.
The CCU also examined numerous files performing the forensic examination of digital evidence
including internal hard drives, external hard drives, USB flash drives, and optical disks. In
addition to supporting criminal investigations, the CCU also devoted a significant amount of
time during this reporting period examining digital media to assess the exposure to NARA
resulting from the loss of digital media containing Personally Identifiable Information (PII).




SEMIANNUAL REPORT TO CONGRESS                                                            Page 21
April 1, 2009 to September 30, 2009
INVESTIGATIONS

                                        OIG Hotline

The OIG Hotline provides a confidential channel for reporting fraud, waste, abuse, and
mismanagement to the OIG. In addition to receiving telephone calls at a toll-free Hotline
number and letters to the Hotline post office box, we also accept e-mail communication from
NARA’s internal network or the Internet through the Hotline e-mail system. Walk-ins are
always welcome. Visit http://www.archives.gov/oig/ for more information, or contact us:

       By telephone
        Washington, DC, Metro area: (301) 837-3500 

        Toll-free and outside the Washington, DC, Metro area: (800) 786-2551 

       By mail
        NARA OIG Hotline
        P.O. Box 1821 

        Hyattsville, MD 20788-0821 

       By e-mail
        oig.hotline@nara.gov
       By online referral form
        http://www.archives.gov/oig/referral-form/index.html

The Office of Investigations promptly and carefully reviews calls, letters, and e-mail to the
Hotline. We investigate allegations of suspected criminal activity or civil fraud and conduct
preliminary inquiries on non-criminal matters to determine the proper disposition.

Where appropriate, referrals are made to the OIG audit staff, NARA management, or external
authorities. Hotline contacts are captured as complaints in the Office of Investigations. The
following table summarizes complaints received and Hotline activity for this reporting period:

                     Complaints received                                     46
                     Complaints closed pending response from NARA             2
                     Complaints closed final                                 23
                     Complaints open to Investigations                        7


                           Contractor Self Reporting Hotline
To comply with the self-reporting requirements in the Federal Acquisition Regulation, a web-
based form has been created to allow NARA contractors to satisfy the requirement they notify
the OIG, in writing, whenever the contractor has credible evidence that a principal, employee,
agent, or subcontractor of the contractor has committed a violation of the civil False Claims Act
or a violation of Federal criminal law involving fraud, conflict of interest, bribery, or gratuity
violations in connection with the award, performance, or closeout of a contract or any related
subcontract. The form can be found off of the OIG’s home page at:
http://www.archives.gov/oig/contractor-form/index.html


SEMIANNUAL REPORT TO CONGRESS                                                              Page 22

April 1, 2009 to September 30, 2009

AGENCY SIGNIFICANT DEFICIENCIES

  OIG-Identified Program and Operational Significant Deficiencies
The OIG, through audit and investigative work, identified the following program and operational
significant deficiencies. These deficiencies result in Material Weaknesses 2 because they
severely hamper the agency’s ability to carry out its mission and achieve strategic goals. As
such, it is important for OMB and the Congress to be apprised of these deficiencies and agency
actions to address them in order to ensure they receive proper attention. Without appropriate risk
management and risk mitigation strategies, including adequate resources, NARA cannot ensure it
effectively accomplishes its mission.

Holdings Processing

In February 2007, the OIG issued an audit report 3 that found NARA was constrained in its
ability to provide efficient and effective access to, and information about, textual records in
NARA’s custody as the result of large backlogs of inadequately processed records. At the time
of our audit nearly 65 percent of NARA’s textual records were not adequately processed, and the
cost associated with fully processing these records was estimated to be $1.5 billion,
approximately three times NARA’s annual budget. Because these backlogs impeded NARA’s
ability to perform its mission of providing access to records as soon as legally possible, and our
audit revealed the need for additional controls, our report identified processing as a Material
Weakness. An agency-initiated study agreed with our assessment of the impact of backlogs on
NARA’s ability to perform its mission. This study stated less than half of the holdings at
Archives I and II (where the majority of NARA records reside and which draw the heaviest
researcher use) were controlled at a level of detail enabling researchers to quickly identify
records relevant to their interests. Further, more than one third were controlled at such a basic
level that even experienced NARA staff had difficulty determining whether they contained
information which may be responsive to a researcher’s request. Despite this, the agency never
reported Processing as a Material Weakness via the Federal Managers Financial Integrity Act
(FMFIA) reporting process.

Current Status: The OIG still believes this to be a Material Weakness and has informed
management via the annual FMFIA process the prior two years. While the processing backlog
has been reduced from 65 percent to 60 percent of NARA’s textual holdings, it still represents a
significant obstacle to NARA’s mission. Additionally, recommendations made in our original
audit report, aimed at remedying identified weaknesses and strengthening internal controls, have
yet to be fully implemented. Finally, unless NARA is successful in obtaining additional
resources or improving productivity, significant backlogs will remain into the foreseeable future
as textual records continue to be accessioned into NARA. According to the most recent
management report, NARA has already processed and described the records which can easily be
done, but NARA will have difficulty meeting future processing goals unless additional resources
are obtained.


2 Material Weakness as defined in OMB A-123, Management’s Responsibility for Internal Control
3 OIG Report No. 07-06, Audit of the Processing of Records Accessioned into NARA (Feb. 28, 2007)

SEMIANNUAL REPORT TO CONGRESS                                                                      Page 23
April 1, 2009 to September 30, 2009
AGENCY SIGNIFICANT DEFICIENCIES

Holdings Preservation

In June 2005, the OIG issued an audit report that identified resource and reporting deficiencies
associated with NARA’s Preservation program 4 and declared them to constitute a Material
Weakness. Specifically, the audit identified: (a) items needing preservation had not been
identified; (b) staffing was inadequate for addressing preservation needs in a timely manner; (c)
there was no criteria for assessing preservation needs/item condition; (d) some NARA facilities
did not meet minimum environmental standards for the preservation of records, and; (e)
preservation performance data was inaccurate. NARA declared Preservation a Material
Weakness in their FY 2005 FMFIA statement. However, in FY 2006 NARA removed this
designation despite our objections that the agency had not yet implemented recommendations
contained in the 2005 audit report. Specifically, the agency had not initiated sufficient controls
to reasonably ensure items needing preservation were identified and preserved in a timely
manner, and preservation backlogs were still substantial at 65 percent of holdings.

Current Status: NARA has taken action to address recommendations contained in the FY 2005
audit report. NARA has quantified and requested the funding necessary to bring its current
facilities up to the environmental standards for the storage of permanent textual records.
Information on the condition of our holding is being collected, and additional resources to
preserve these holdings are being requested. However, work remains to be done. Preservation
information is stove-piped within each office and therefore is not used to guide agency-wide
strategic decision making; criteria is not uniformly applied, and information is not uniformly
collected. Further there remains a need for additional resources. Management has recently
reported additional resources will be necessary in order to successfully meet future preservation
goals. At the beginning of FY 2010, almost 65 percent of NARA’s holdings were identified as
“at risk.” This represents a significant volume of records and materially constrains NARA’s
ability to accomplish its mission of safeguarding and preserving the records of our Government.

Information Technology Security Program
In FY 2005 we supported the removal of a Material Weakness in Information Technology (IT)
Security first identified in FY 2000. At the same time we expressed concerns about the state of
NARA’s IT Security environment and indicated additional audit work focused on this area
would be performed in FY 2006. In FY 2006 we performed several IT Security related audits,
including an audit of NARA’s Information Security Program and its adherence to standards
established under the Federal Information Security Management Act (FISMA), 5 which cited a
number of concerns and made recommendations for strengthening NARA’s IT Security
Program. Based on the body of IT Security audit work performed in FY 2006 the OIG informed
the Archivist a new IT Security Material Weakness should be declared. NARA declined
reporting this as a Material Weakness in their FY 2006 assurance statement. In FY 2007 NARA
reported IT Security as a Material Weakness based on the results of a Program Review for
Information Security Management Assistance (PRISMA) review performed by an NH
contractor. The OIG responded we agreed with the declaration of IT Security as a Material

4 OIG Report No. 05-13, Evaluation of NARA’s Preservation Program (June 22, 2005).
5 OIG Report No. 06-09, Review of NARA’s Information Security Program (August 8, 2006).

SEMIANNUAL REPORT TO CONGRESS                                                              Page 24
April 1, 2009 to September 30, 2009
AGENCY SIGNIFICANT DEFICIENCIES

Weakness, however we believed the Material Weakness was too narrowly focused and failed to
include weaknesses identified in several OIG work products. We conveyed to the Archivist IT
security concerns in nine additional IT areas which we believed needed to be addressed before
the IT Security Material Weakness could be downgraded.

Current Status: In FY 2009 the agency reported it was downgrading the IT Security Material
Weakness declared in FY 2007 based on significant accomplishments in addressing concerns
identified in the PRISMA review. The OIG evaluated material submitted by the agency in
support of this claim and found sufficient action had been taken on only two of the thirty-four
recommendations contained in the review. Additionally, audit work performed during the course
of the year confirmed continued IT Security weaknesses in the nine areas first identified by the
OIG in FY 2007. These IT Security deficiencies weaken and compromise NARA’s IT operating
environment and leave NARA vulnerable to attack. For these reasons we informed the Archivist
IT Security should remain a Material Weakness.

Artifact Inventory Controls at Presidential Libraries
In October 2007, NARA’s OIG issued a report identifying internal control weaknesses
associated with NARA’s stewardship and management of Presidential artifacts at its network of
Presidential libraries. 6 Specifically, we identified weaknesses adversely impacting NARA’s
ability to account for, control, safeguard, and preserve Presidential artifacts. We believed the
deficiencies were significant enough to warrant a Material Weakness. NARA declared a
Material Weakness in inventory controls over artifacts at Presidential libraries in FY 2007 and
continued to treat it as such in FY 2009.

Current Status: In FY 2009 NARA continued reporting this as a Material Weakness. The OIG
was informally provided with information supporting management action taken to address
findings contained in the report. The OIG is currently evaluating information provided by
management to determine if they support closing recommendations contained in the report.

Holdings Security
Based on the results of investigations into the theft of NARA holdings conducted by the OIG,
NARA declared a Material Weakness in Holdings Security in FY 2001. While NARA continues
to address this area through a number of initiatives, the OIG continues to investigate thefts of
NARA holdings, and recent audits have identified weaknesses in controls associated with
holdings security, highlighting the need for additional management action in this area.

Current Status: In FY 2009 NARA continued reporting holdings security as a Material
Weakness. NARA has indicated it will staff the recently created holdings protection program
and conduct a risk assessment of its controls in FY 2010.




6 OIG Report No. 08-01, Audit of the Process of Safeguarding and Accounting for Presidential Library Artifacts
(October 26,2007).

SEMIANNUAL REPORT TO CONGRESS                                                                           Page 25
April 1, 2009 to September 30, 2009
AGENCY SIGNIFICANT DEFICIENCIES

IT Implementation of PII Protections
In FY 2009 NARA declared a Material Weakness related to the security of NARA-owned IT
storage devices. Ongoing OIG investigations of data breaches involving NARA equipment
support this conclusion. However, the nature of some of these breaches point to a problem with
not only IT controls, but also with physical controls over IT equipment and policies governing
how NARA handles and prepares paper documents released to the public.




SEMIANNUAL REPORT TO CONGRESS                                                          Page 26
April 1, 2009 to September 30, 2009
TOP TEN MANAGEMENT CHALLENGES

                                         Overview
Under the authority of the Inspector General Act, the NARA OIG conducts and supervises
independent audits, investigations, and other reviews to promote economy, efficiency, and
effectiveness and to prevent and detect fraud, waste, and mismanagement. To fulfill our mission
and help NARA achieve its strategic goals, we have aligned our programs to focus on areas we
believe represent the agency’s most significant challenges. We have identified those areas as
NARA’s top ten management challenges.

1.      Electronic Records Archives
NARA’s mission with the Electronic Records Archives (ERA) is to build a system accommodating the
government’s vast amounts of electronic records stored in past, present, and future formats. Electronic
records are vital to the how our government works, and their preservation through the ERA will define
what information future generations will be able to access and use. However, the ERA program has
experienced delivery delays, budgeting problems, and contractor staffing problems. Initial Operating
Capacity (IOC) for the ERA Program was delayed from September 2007 until June 2008, and even then
the program functions at IOC were reduced from initial requirements. Also, the component to handle all
White House records, the Executive Office of the President (EOP) System, was segregated out due to
delays and pursued down a separate line of programming. The EOP System achieved IOC in December
2008, and all “priority” data was planned to be loaded into the system by March 2009. However, the
EOP System is not able to handle or ingest any classified records. Moreover, due to issues with the data
received from the White House, the “priority” data was not loaded into the EOP System until September
2009, and a small number of these files are still not loaded. The base ERA program is also experiencing
delays with the next phase of work (i.e., Increment 3) due to extensive contract negotiations. Increment
3 is scheduled to include online public access, a congressional system, and system access to additional
agencies or offices. Currently NARA staff is not able to clearly define what the ERA system will be
able to do or what functions it will provide to NARA when the program reaches Full Operating
Capability scheduled for 2012 at an estimated cost of $453 million. The success of this mission-critical
program is uncertain. The challenge will be to deliver and maintain a functional ERA system to
preserve and provide access to our nation’s electronic records for as long as needed.

2.      Improving Records Management
Part of NARA’s mission is safeguarding and preserving the records of our government, thereby ensuring
people can discover, use, and learn from this documentary heritage. NARA provides continuing access
to the essential documentation of the rights of American citizens and the actions of their government.
The effective management of these records is key to accomplishing this mission. NARA must work
with Federal agencies to ensure the effective and efficient appraisal, scheduling, and transfer of
permanent records, in both traditional and electronic formats. The major challenge is how best to
accomplish this component of our overall mission while reacting and adapting to a rapidly changing
technological environment in which electronic records, particularly e-mail, proliferate. In short, while
the ERA system is intended to work with electronic records received by NARA, we need to ensure the
proper electronic and traditional records are in fact preserved and sent to NARA in the first place.



SEMIANNUAL REPORT TO CONGRESS                                                           Page 27
April 1, 2009 to September 30, 2009
TOP TEN MANAGEMENT CHALLENGES

NARA also directs the Electronic Records Management (ERM) initiative, one of 24 Government-wide
initiatives under the E-Government Act of 2002. The ERM initiative will provide guidance to agencies
in managing and transferring their permanent electronic records to NARA, in an increasing variety of
data types and formats. In June 2008, GAO recommended NARA develop and implement an approach
to provide oversight of agency electronic records management programs to provide adequate assurance
that NARA guidance is effective and the agencies are following electronic records guidance. NARA, its
Government partners, and Federal agencies are challenged with determining how best to manage
electronic records and how to make ERM and e-Government work more effectively.

3.      Information Technology Security
The Archivist identified IT Security as a material weakness under the Federal Managers Financial
Integrity Act reporting process in FY 2007 and FY 2008. NARA’s Office of Information Services (NH)
conducted an independent assessment of the IT security program using the Program Review for
Information Security Management Assistance (PRISMA) methodology developed by the National
Institute for Standards and Technology (NIST) in FY 2007. The assessment stated NARA’s policy and
supporting procedures for IT security were weak, incomplete, and too dispersed to be effective.

IT security continues to present major challenges for NARA, including physical security of IT hardware
and technical vulnerabilities within our electronic systems themselves and how NARA operates them.
The confidentiality, integrity, and availability of our electronic records and information technology
systems are only as good as our IT security infrastructure. Each year, risks and challenges to IT security
continue to be identified. NARA must ensure the security of its data and systems or risk undermining
the agency’s credibility and ability to carry out its mission.

4.      Expanding Public Access to Records
The records of a democracy’s archives belong to its citizens. NARA’s challenge is to more aggressively
inform and educate our customers about the services we offer and the essential evidence to which we
can provide access. Unfortunately, over of half of NARA’s textual holdings have not been processed to
allow efficient and effective access to these records. To meet its mission NARA must work to ensure it
has the processes and resources necessary to establish intellectual control over this backlog of
unprocessed records.

Another challenge for NARA, given society’s growing expectation for easy and near-immediate access
to information on-line, will be to provide such access to records created digitally (i.e., “born digital”)
and to identify those textual records most in demand so they can be digitized and made available
electronically. NARA’s role in ensuring the timeliness and integrity of the declassification process of
classified material held at NARA is also vital to public access.

5.      Meeting Storage Needs of Growing Quantities of Records
NARA-promulgated regulation 36 CFR Part 1228, “Disposition of Federal Records,” Subpart K,
“Facility Standards for Records Storage Facilities,” requires all facilities housing Federal records to
meet defined physical and environmental requirements by FY 2009. NARA’s challenge is to ensure its

SEMIANNUAL REPORT TO CONGRESS                                                              Page 28
April 1, 2009 to September 30, 2009
TOP TEN MANAGEMENT CHALLENGES

own facilities, as well as those used by other Federal agencies, are in compliance with these regulations;
and effectively mitigate risks to records which are stored in facilities not meeting these new standards.

6.      Preservation Needs of Records
As in the case of our national infrastructure (bridges, sewer systems, etc.), NARA holdings grow older
daily and face degradation associated with time. This affects both traditional paper records, and the
physical media that electronic records are stored on. The Archivist previously identified preservation as
a material weakness under the Federal Managers’ Financial Integrity Act reporting process. However,
in FY 2006, preservation was downgraded to a reportable condition, and it is currently being monitored
as a significant deficiency. The OIG strongly disagrees with this. Preserving and providing access to
records is a fundamental element of NARA’s duties to the country, and NARA cannot provide access to
records unless it can preserve them for as long as needed. The backlog of records needing preservation
treatment continues to grow. NARA is challenged to address this backlog and future preservation needs,
including the data integrity of electronic records. The challenge of ensuring NARA facilities meet
environmental standards for preserving records (see OIG Challenge #5) also plays a critical role in the
preservation of Federal records.

7.      Improving Project Management
Effective project management, particularly for IT projects, is essential to obtaining the right equipment
and systems to accomplish NARA’s mission. Complex and high-dollar contracts require multiple
program managers, often with varying types of expertise. NARA is challenged with planning projects,
developing adequately defined requirements, analyzing and testing to support acquisition and
deployment of the systems, and providing oversight to ensure effective or efficient results within costs.
Currently IT systems are not always developed in accordance with established NARA guidelines. These
projects must be better managed and tracked to ensure cost, schedule and performance goals are met.

8.      Physical and Holdings Security
The Archivist has identified security of collections as a material weakness under the FMFIA reporting
process. Document and artifact theft is not a theoretical threat, it is a reality NARA has been subjected
to time and time again. NARA must maintain adequate levels of security to ensure the safety and
integrity of persons and holdings within our facilities. This is especially critical in light of the security
realities facing this nation and the risk our holdings may be pilfered, defaced, or destroyed by fire or
other man-made and natural disasters.

9.      Contract Management and Administration
The GAO has identified Commercial Services Management (CMS) as a Government-wide initiative.
The CMS initiative includes enhancing the acquisition workforce, increasing competition, improving
contract administration skills, improving the quality of acquisition management reviews, and
strengthening contractor ethics requirements. Effective contract management is essential to obtaining
the right goods and services at a competitive price to accomplish NARA’s mission. NARA is
challenged to continue strengthening the acquisition workforce and improve the management and


SEMIANNUAL REPORT TO CONGRESS                                                                 Page 29
April 1, 2009 to September 30, 2009
TOP TEN MANAGEMENT CHALLENGES

oversight of Federal contractors. NARA is also challenged with reviewing contract methods to ensure a
variety of procurement techniques are properly used in accordance with Federal laws and regulations.

10.      Strengthening Human Capital
The GAO has identified human capital as a Government-wide high risk. In November 2007,
OPM reported NARA had not established a formal human capital plan. Instead NARA has
adopted a phased approach to human capital planning. However, earlier this year the Partnership
for Public Service ranked NARA 29th out of 30 large Federal agencies in its "Best Places to
Work in the Federal Government" rankings. The rankings are based on employee responses to
the Federal Human Capital Survey (FHCS) administered bi-annually by the U.S. Office of
Personnel Management (OPM). In response to the 2008 FHCS, NARA developed a FHCS
Action Plan focusing on Communication, Leadership, Performance Culture, and Training. This
plan incorporates the individual strategies developed by each NARA office and identifies
objectives, actions to be taken, outcome measures, and improvement targets for each.

NARA’s challenge is to adequately address its workforce’s concerns and assess its human capital
needs in order to effectively recruit, retain, and train people with the technological understanding
and content knowledge that NARA needs for future success.




SEMIANNUAL REPORT TO CONGRESS                                                              Page 30
April 1, 2009 to September 30, 2009
REPORTING REQUIREMENTS

MANDATED BY THE INSPECTOR GENERAL ACT OF 1978, AS 

          AMENDED, AND OTHER LAWS 

REQUIREMENT             SUBJECT                                             PAGE(s)

Section 4(a)(2)         Review of legislation and regulations               9

Section 5(a)(1)         Significant problems, abuses, and deficiencies      4, 13-17,
                                                                            23-26

Section 5(a)(2)         Significant recommendations for corrective action   13-17

Section 5(a)(3)         Prior significant recommendations unimplemented     35

Section 5(a)(4)         Summary of prosecutorial referrals                  33

Section 5(a)(5)         Information or assistance refused                   35

Section 5(a)(6)         List of reports issued                              34

Section 5(a)(7)         Summaries of significant reports                    13-17

Section 5(a)(8)         Audit Reports—Questioned costs                      34

Section 5(a)(9)         Audits Reports—Funds put to better use              34-35

Section 5(a)(10)        Prior audit reports unresolved                      35

Section 5(a)(11)        Significant revised management decisions            35

Section 5(a)(12)        Significant revised management decisions            35
                        with which the OIG disagreed

P.L. 110-181            Annex of completed contract audit reports           34




SEMIANNUAL REPORT TO CONGRESS                                                       Page 31
April 1, 2009 to September 30, 2009
REPORTING REQUIREMENTS

                   STATISTICAL SUMMARY OF INVESTIGATIONS


Investigative Workload
        Complaints received this reporting period                                        46
        Investigations pending at beginning of reporting period                          35
        Investigations opened this reporting period                                       9
        Investigations closed this reporting period                                       8
        Investigations carried forward this reporting period                             39
Categories of Closed Investigations
        Fraud                                                                             1
        Conflict of Interest                                                              0
        Contracting Irregularities                                                        0
        Misconduct                                                                        1
        Larceny (theft)                                                                   2
        Other                                                                             4
Investigative Results
        Cases referred – accepted for prosecution                                         1
        Cases referred – declined for prosecution                                         2
        Cases referred – pending prosecutive decision                                     0
        Arrest                                                                            0
        Indictments and informations                                                      2
        Convictions                                                                       2
        Fines, restitutions, judgments, and other civil and administrative recoveries   $9,876
        NARA holdings recovered                                                           3
Administrative Remedies
        Employee(s) terminated                                                            0
        Employee(s) resigned in lieu of termination                                       1
        Employee(s) suspended                                                             0
        Employee(s) given letter of reprimand or warnings/counseled                       1
        Employee(s) taking a reduction in grade in lieu of administrative action          0
        Contractor (s) removed                                                            0




SEMIANNUAL REPORT TO CONGRESS                                                            Page 32
April 1, 2009 to September 30, 2009
REPORTING REQUIREMENTS

                        SUMMARY OF PROSECUTORIAL REFERRALS
                                       Requirement 5(a)(4)
Accepted for Prosecution

Indecent Exposure
The OIG received a report of a naked male seen at the National Archives Building in
Washington, DC. The OIG’s investigation determined the identity of the subject. The case was
referred to the Washington, DC Attorney General who accepted the case for prosecution. This
case is currently pending prosecution.

Declined for Prosecution

Procurement Integrity Act Violation
A NARA employee provided a contract bidder with pre-decisional information allowing the
contractor to gain a significant advantage over other contractors bidding on the contract. When
confronted, the subject made false statements to investigators regarding their involvement in the
contract award process. The Antitrust Division at the Department of Justice declined prosecution
and the case was transferred to an Assistant U.S. Attorney for a prosecutive, as well as civil
action determination. The case was ultimately declined for both criminal prosecution and civil
action.

Misuse of NARA Seal and the Great Seal
A website was using the official NARA Seal without permission from the Archives, as well as
improperly using the Great Seal of the United States. After failing to be responsive to several
letters and phone calls ordering the removal of the seals from the website, the case was accepted
for prosecution by an Assistant United States Attorney. Subsequently, the seals were taken down
and prosecution was ultimately declined

Pending Prosecutorial Determination

None.




SEMIANNUAL REPORT TO CONGRESS                                                            Page 33
April 1, 2009 to September 30, 2009
        REPORTING REQUIREMENTS

                                         LIST OF REPORTS ISSUED
                                                 Requirement 5(a)(6)
Report      Title                                    Date         Questioned        Unsupported   Funds Put to
No.                                                               Costs             Costs         Better Use
09-11       OIG Monitoring of the Electronic
                                                     04/16/2009        0                 0               0
            Records Archives Program
09-13       Audit of NARA’s Vehicle Fleet
                                                     08/26/2009        0                 0             $40,000
            Management
09-14       Audit of NARA’s FY 2008
                                                     08/28/2009        0                 0               0
            Management Control Program
09-15       Audit of NARA’s Work-at-Home
                                                     09/29/2009        0                 0             $200,00
            System
09-16       Audit of NARA’s Processing of
                                                     09/30/2009        0                 0               0
            Military Personnel Record Requests


                            AUDIT REPORTS WITH QUESTIONED COSTS
                                                 Requirement 5(a)(8)

                                                        Number of              DOLLAR VALUE
        Category                                         Reports           Questioned        Unsupported
                                                                             Costs              Costs

        A. 	For which no management decision
                                                            0                  $0                 $0
             has been made by the commencement 

             of the reporting period

        B. 	Which were issued during the
                                                            0                  $0                 $0
             reporting period 

             Subtotals (A + B) 
                            0                  $0                 $0
        C. 	For which a management decision has
                                                            0                  $0                 $0
             been made during the reporting period
             (i) dollar value of disallowed cost            0                  $0                 $0
             (ii) dollar value of costs not
                                                            0                  $0                 $0
             disallowed
        D. 	For which no management decision
             has been made by the end of the                0                  $0                 $0
             reporting period
        E. 	 For which no management decision
                                                            0                  $0                 $0
             was made within 6 months


                    ANNEX ON COMPLETED CONTRACT AUDIT REPORTS

        Section 845 of the 2008 Defense Authorization Act, Public Law 110-181, requires certain
        information on completed contract audit reports containing significant audit findings be included
        as an annex to this report. While an audit on the ERA contract was completed during this period
        (please see page 13), this was a program audit as opposed to a contract audit.


        SEMIANNUAL REPORT TO CONGRESS                                                              Page 34
        April 1, 2009 to September 30, 2009
REPORTING REQUIREMENTS

              AUDIT REPORTS WITH RECOMMENDATIONS THAT

                      FUNDS BE PUT TO BETTER USE

                                        Requirement 5(a)(9) 



              CATEGORY                                NUMBER                     DOLLAR VALUE
A. For which no management decision has
   been made by the commencement of                         1                       $35,685
   the reporting period
B. Which were issued during the reporting
                                                            2                       $240,000
   period
   Subtotals (A + B)                                        3                       $275,685
C. For which a management decision has
                                                            3                            $0
   been made during the reporting period
   (i) dollar value of recommendations
                                                            0                            $0
        that were agreed to by management
        Based on proposed management
                                                            0                            $0
        Action
        Based on proposed legislative
                                                            0                            $0
        Action
   (ii) dollar value of recommendations
        that were not agreed to by                          0                            $0
        management
D. For which no management decision has
   been made by the end of the reporting                    2                       $240,000
   period
E. For which no management decision was
   made within 6 months of issuance                         1                       $35,685




                               OTHER REQUIRED REPORTS


REQUIREMENT                                  CATEGORY                               SUMMARY
5(a)(3)                    Prior significant recommendations unimplemented        None
5(a)(5)                    Information or assistance refused                      None
5(a)(10)                   Prior audit reports unresolved                         None
5(a)(11)                   Significant revised management decisions               None
5(a)(12)                   Significant revised management decisions with which    None
                           the OIG disagreed




SEMIANNUAL REPORT TO CONGRESS                                                                  Page 35
April 1, 2009 to September 30, 2009
